Audit Report 11-06 (Issued March 31, 2011)
Secure Card Personalization System Information Technology Security Controls

GPO provides personalized smartcards and identity cards for customers throughout the Federal
Government. The Secure Card Personalization System (SECAPS) is the automated system used for
producing the cards. SECAPS was developed by GPO through a contract with General Dynamics
Information Technology and designed to create personalized embossed identity cards, Homeland
Security Presidential Directive No. 12 (HSPD-12) compliant smartcards, and high-frequency radio
frequency identification cards. GPO produces cards for the Department of Homeland Security’s
Customs and Border Protection’s Trusted Traveler Program and for the Center for Medicare and
Medicaid Services in the Department of Health and Human Services.

SECAPS receives and maintains PII for purposes of card production. Recent breaches of PII at several
Federal agencies increased the level of scrutiny over the handling of that type of sensitive
information. To help protect against breaches as well as maintain an appropriate level of security,
Federal programs must ensure that controls over PII data are in place.

The audit of SECAPS was performed to determine whether a requisite level of IT security controls in
SECAPS maintained system integrity, confidentiality, and availability. Specific audit objectives
included determining the adequacy of controls associated with the SECAPS operating system,
databases, physical security, system interconnections and the transmission of PII, and purging of PII.

We issued a sensitive report that identifies opportunities to strengthen IT security controls and
further reduce the potential risk of system compromise. Management concurred with each of the
report’s recommendations and has either taken or proposed responsive corrective actions.
